Audit Report




OIG-07-003
Audit of the United States Mint’s Schedule of
Custodial Deep Storage Gold and Silver Reserves
as of September 30, 2006 and 2005

October 23, 2006




Office of
Inspector General
Department of the Treasury
                                    DEPARTMENT OF THE TREASURY
                                          W ASHINGTON, D.C. 20220




                                            October 23, 2006
     OFFICE OF
INSPECTOR GENERAL




          MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                         UNITED STATES MINT

          FROM:                 Michael Fitzgerald
                                Acting Deputy Assistant Inspector General for Financial
                                 Management and Information Technology Audits

          SUBJECT:              Audit of the United States Mint’s Schedule of
                                Custodial Deep Storage Gold and Silver Reserves as of
                                September 30, 2006 and 2005

          The attached report presents the results of our audits of the United States Mint’s
          (Mint) Schedule of Custodial Deep Storage Gold and Silver Reserves (Custodial
          Schedule) as of September 30, 2006 and 2005. The Custodial Schedule is the
          responsibility of the Mint. We conducted our audits in accordance with Government
          Auditing Standards, issued by the Comptroller General of the United States.

          We rendered an unqualified opinion on the Custodial Schedule as of
          September 30, 2006 and 2005. In addition, our report contains no reportable
          conditions related to internal control, and no instances of noncompliance with laws
          and regulations that could have a direct and material effect on the Custodial Schedule.

          The results of our audits will be used by KPMG LLP, an independent public
          accountant, who is performing the audits of the Mint’s Fiscal Year 2006 and 2005
          financial statements. In addition, copies of our report are being provided to the
          Secretary of the Treasury, the Treasurer of the United States, and the Department of
          the Treasury’s Chief Financial Officer.

          Our report has been reviewed by your staff. Based on mutual agreement, we are
          issuing this report as final. Should you have any questions, please contact me at
          (202) 927-5789. We appreciate the cooperation and courtesy extended to our staff.


          Attachment
Contents



TRANSMITTAL MEMORANDUM

SECTION I - REPORT OF THE OFFICE OF INSPECTOR GENERAL

  Management’s Responsibilities....................................................................... 1

  Scope of Audits ........................................................................................... 1

  Results of Audits.......................................................................................... 2

      Opinion on the Custodial Schedule ............................................................. 2

      Internal Control........................................................................................ 3

      Compliance with Laws and Regulations ...................................................... 4

Appendices

  Appendix 1:         Major Contributors to this Report.............................................. 5

  Appendix 2:         Report Distribution.................................................................. 6




SECTION II - UNITED STATES MINT’S SCHEDULE OF CUSTODIAL
             DEEP STORAGE GOLD AND SILVER RESERVES
             AS OF SEPTEMBER 30, 2006 AND 2005




                       Audit of the United States Mint’s Schedule of Custodial Deep Storage               Page i
                       Gold and Silver Reserves as of September 30, 2006 and 2005
                       (OIG-07-003)
               SECTION I -


REPORT OF THE OFFICE OF INSPECTOR GENERAL
                                                              Report of the
OIG                                                         Office of Inspector
                                                                  General
The Department of the Treasury
Office of Inspector General




                  To the Director of the United States Mint:

                  We have audited the accompanying Schedule of Custodial Deep
                  Storage Gold and Silver Reserves (Custodial Schedule) of the
                  United States Mint (Mint) as of September 30, 2006 and 2005.
                  This report presents our unqualified opinion on this Custodial
                  Schedule. Our audit disclosed no material weaknesses and no
                  instances of reportable noncompliance with laws and regulations.


Management’s Responsibilities
                  Management is responsible for: (1) preparing the Custodial
                  Schedule in conformity with accounting principles generally
                  accepted in the United States of America; (2) establishing and
                  maintaining internal control; and (3) complying with laws and
                  regulations applicable to the Mint’s custodial responsibilities for the
                  Deep Storage Gold and Silver Reserves.


Scope of Audits
                  We conducted our audits in accordance with Government Auditing
                  Standards, issued by the Comptroller General of the United States.
                  Those standards require that we plan and perform the audits to
                  obtain reasonable assurance about whether the Custodial Schedule
                  is free of material misstatement. An audit includes examining, on a
                  test basis, evidence supporting the amounts and disclosures in the
                  Custodial Schedule. An audit also includes assessing the
                  accounting principles used and significant estimates made by


                  Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 1
                  Gold and Silver Reserves as of September 30, 2006 and 2005
                  (OIG-07-003)
               management, as well as evaluating the overall Custodial Schedule
               presentation. Our responsibility is to express an opinion on the
               Custodial Schedule based on our audits. We believe that our audits
               provide a reasonable basis for our opinion and our conclusions on
               internal control and compliance with laws and regulations.

               In planning and conducting our audit of the Mint’s Custodial
               Schedule, we considered internal control over financial reporting.
               Specifically, we obtained an understanding of the design of the
               Mint’s internal control related to the Custodial Schedule,
               determined whether these internal controls had been placed in
               operation, assessed control risk, and performed tests of controls in
               order to determine our auditing procedures for the purpose of
               expressing our opinion on the Custodial Schedule and not to
               provide assurance on the internal control over financial reporting.
               Consequently, we do not provide an opinion on such control.

               As part of obtaining reasonable assurance about whether the
               Custodial Schedule is free of material misstatement, we performed
               tests of the Mint’s compliance with certain provisions of laws and
               regulations, noncompliance with which could have a direct and
               material effect on the determination of Custodial Schedule
               amounts. We limited our tests of compliance to these provisions
               and we did not test compliance with all laws and regulations
               applicable to the Mint. We caution that noncompliance may occur
               and not be detected by these tests and that testing may not be
               sufficient for other purposes. Providing an opinion on compliance
               with laws and regulations was not an objective of our audit and,
               accordingly, we do not express such an opinion.


Results of Audits

Opinion on the Custodial Schedule

               In our opinion, the accompanying Custodial Schedule presents
               fairly, in all material respects, the balance of the United States’


                Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 2
                Gold and Silver Reserves as of September 30, 2006 and 2005
                (OIG-07-003)
                   Deep Storage Gold and Silver Reserves in the custody of the Mint
                   as of September 30, 2006 and 2005, in conformity with
                   accounting principles generally accepted in the United States of
                   America.


Internal Control

                   Internal control is a process, effected by management and other
                   personnel, designed to provide reasonable assurance that the
                   following objectives are met:

                      •   Reliability of financial reporting - transactions are properly
                          recorded, processed, and summarized to permit the
                          preparation of the Custodial Schedule in accordance with
                          accounting principles generally accepted in the United States
                          of America, and the safeguarding of assets against loss from
                          unauthorized acquisition, use, or disposition; and

                      •   Compliance with applicable laws and regulations that could
                          have a direct and material effect on the Custodial Schedule.

                   Because of limitations inherent in any internal control, errors or
                   fraud may occur and not be detected. Also, projection of any
                   evaluation of internal control to future periods is subject to the risk
                   that internal control may become inadequate because of changes in
                   conditions or that the effectiveness of the design and operation of
                   policies and procedures may deteriorate.

                   Our consideration of internal control over financial reporting would
                   not necessarily disclose all matters in the internal control over
                   financial reporting related to the Custodial Schedule that might be
                   material weaknesses. A material weakness is a reportable
                   condition in which the design or operation of one or more of the
                   internal control components does not reduce to a relatively low
                   level the risk that misstatements caused by error or fraud in
                   amounts that would be material in relation to the Custodial
                   Schedule being audited may occur and not be detected within a
                   timely period by employees in the normal course of performing their


                   Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 3
                   Gold and Silver Reserves as of September 30, 2006 and 2005
                   (OIG-07-003)
               assigned functions. However, we noted no matters involving the
               internal control over financial reporting related to the Custodial
               Schedule and its operation that we consider to be material
               weaknesses as defined above.

Compliance with Laws and Regulations

               The results of our tests of compliance with laws and regulations
               disclosed no instances of noncompliance that are required to be
               reported under Government Auditing Standards.



                                                 ******

               We have reviewed our report with the financial management of the
               Mint. Based on mutual agreement, we are issuing this report as
               final. Should you or your staff have any questions, you may
               contact me at (202) 927-5789. We appreciate the cooperation
               and the courtesy extended to our staff.

               This report is intended solely for the information and use of the
               management of the Mint, the Department of the Treasury, the
               Office of Management and Budget, Congress, and KPMG LLP, and
               is not intended to be and should not be used by anyone other than
               these specified parties. However, this report is available as a
               matter of public record.




               Michael Fitzgerald
               Acting Deputy Assistant Inspector General for
                 Financial Management and Information Technology Audits
               October 11, 2006




               Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 4
               Gold and Silver Reserves as of September 30, 2006 and 2005
               (OIG-07-003)
Appendix 1
Major Contributors to This Report




Financial Audit Division

Donna Joseph, Audit Manager
Susan Barron, Audit Manager
Catherine Yi, Auditor
Rafael Cumba, Auditor
Susan Sebert, Program Analyst
Myung Han, Program Analyst




Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 5
Gold and Silver Reserves as of September 30, 2006 and 2005
(OIG-07-003)
      Appendix 2
      Report Distribution




The Department of the Treasury

      Secretary of the Treasury
      Treasurer of the United States
      Assistant Secretary for Management and Chief Financial Officer
      Director, Office of Accounting and Internal Control

United States Mint

      Director
      Deputy Director
      Chief Financial Officer

Independent Public Accountant

      KPMG LLP




      Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 6
      Gold and Silver Reserves as of September 30, 2006 and 2005
      (OIG-07-003)
                  SECTION II -

UNITED STATES MINT’S SCHEDULE OF CUSTODIAL DEEP
       STORAGE GOLD AND SILVER RESERVES
                     AS OF
          SEPTEMBER 30, 2006 AND 2005
                   DEPARTMENT OF THE TREASURY
                        UNITED STATES MINT
   SCHEDULE OF CUSTODIAL DEEP STORAGE GOLD AND SILVER RESERVES
                  AS OF SEPTEMBER 30, 2006 AND 2005
                           (IN THOUSANDS)

CUSTODIAL DEEP STORAGE GOLD AND SILVER RESERVES
                                          2006                              2005___

       Deep storage gold and silver reserves (Note 2)       $10,364,687   $10,364,687

       Liability to Treasury (Note 2)                        $10,364,687  $10,364,687
                                                             ___________ ___________
Net deep storage gold and silver reserves custodial position $         0 $          0


The accompanying notes are an integral part of this Schedule.
                  DEPARTMENT OF THE TREASURY
                       UNITED STATES MINT
NOTES TO THE SCHEDULE OF CUSTODIAL DEEP STORAGE GOLD AND SILVER
                            RESERVES
                 AS OF SEPTEMBER 30, 2006 AND 2005

Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

       The United States Mint, established in 1792, is an integral part of the Department of the Treasury.
       The mission of the United States Mint is to manufacture coins for general circulation. In addition
       to manufacturing circulating coins, the United States Mint manufactures numismatic products,
       including medals, proof coins, uncirculated coins, bullion coins (gold, platinum, and silver), and
       commemorative coins. These manufacturing operations are reported in the United States Mint’s
       financial statements. The United States Mint is also the custodian of a significant portion of the
       United States’ gold and silver reserves. The United States Mint uses the term custodial to
       identify gold and silver reserves held for the United States Treasury. The custodial reserves are
       not assets of the United States Mint, but are assets of the United States Treasury.

       The United States Mint’s Public Enterprise Fund (PEF) funds all custodial activities, including
       the protection of the United States’ gold and silver reserves.

B.     Basis of Presentation

       This Schedule has been prepared to report the deep storage gold and silver reserves custodial
       position of the United States Mint. The books and records of the United States Mint have served
       as the source of the information contained herein. This Schedule has been prepared in accordance
       with accounting principles generally accepted in the United States of America (GAAP) and
       United States Mint accounting policies.

       This Schedule includes all gold and silver classified by the United States Mint as “custodial deep
       storage reserves” as defined in Note 2. Deep storage is defined as that portion of the U.S.
       Government-owned gold and silver bullion reserve which the United States Mint secures in
       sealed vaults. Deep storage gold comprises the vast majority of the reserves and consists
       primarily of gold bars. This Schedule does not reflect any United States gold and silver reported
       by the United States Mint as working stock, or any reserve amounts due to be replenished by the
       PEF, nor does it include Treasury-owned gold held at Federal Reserve Banks (FRB). Upon
       approval from the Secretary of the Treasury, the PEF may use gold and silver from the custodial
       deep storage reserves to support its numismatic operations.

Note 2. Deep Storage Gold and Silver Reserves

       The gold and silver reserves reported in this Schedule are exclusive of the gold and silver reserves
       considered to be working stock in the United States Mint’s financial records and of the Treasury-
       owned gold held by the FRB. The custodial deep storage gold and silver reserves included in this
       Schedule are primarily in bar form, but may occasionally be in coin or other form. The custodial
       deep storage reserves also include foreign gold coins that have been held by Treasury for many
       years.

       The deep storage gold and silver reserves are reported in this Schedule at the values stated in
       31USC§5116 and 5117 (statutory rates) which are $42.2222 per fine troy ounce (FTO) of gold
       and $1.292929292 per FTO of silver. An offsetting liability is also reported for these assets.
                  DEPARTMENT OF THE TREASURY
                       UNITED STATES MINT
NOTES TO THE SCHEDULE OF CUSTODIAL DEEP STORAGE GOLD AND SILVER
                            RESERVES
                 AS OF SEPTEMBER 30, 2006 AND 2005

    At September 30, 2006 and 2005, the market value of gold per the London Gold Fixing (PM) was
    $599.25 per FTO and $473.25 per FTO respectively. Deep storage gold inventories consisted of
    the following at September 30:

                    FTO                     Statutory Value          Market Value

    2006            245,262,897.04          $10,355,539,091          $146,973,791,051

    2005            245,262,897.04          $10,355,539,091          $116,070,666,024


    At September 30, 2006 and 2005, the market value of silver per the London Gold Fixing was
    $11.5500 per FTO and $7.5300 per FTO respectively. Deep storage silver inventories consisted
    of the following at September 30:

                    FTO                     Statutory Value          Market Value

    2006            7,075,171.14            $ 9,147,696              $81,718,227

    2005            7,075,171.14            $ 9,147,696              $53,276,039


    The combined custodial deep storage gold and silver reserves consisted of the following at
    September 30:

                                            Statutory Value          Market Value

    2006                                    $10,364,686,787          $147,055,509,278

    2005                                    $10,364,686,787          $116,123,942,063
